9060   Board of Governors of the Federal Reserve System




       Audit of the Board’s Implementation

          of the Dodd-Frank Wall Street

       Reform and Consumer Protection Act





              Ofﬁce of Inspector General




                                              September 2011

                                       September 30, 2011


Mr. Scott G. Alvarez
General Counsel
Legal Division
Board of Governors of the Federal Reserve System
Washington, DC 20551

Mr. Jim Lyon
Special Advisor to the Board for Regulatory Reform Implementation
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Messrs. Alvarez and Lyon:

      The Office of Inspector General is pleased to present its Audit of the Board’s
Implementation of the Dodd-Frank Wall Street Reform and Consumer Protection Act. In
response to the financial crisis of 2008, the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank) was enacted on July 21, 2010. Dodd-Frank includes a multitude of
provisions that affect virtually every financial market and establishes new authorities and
responsibilities for nearly every federal financial regulatory agency. Dodd-Frank charges the
Board of Governors of the Federal Reserve System (Board) with significant responsibilities,
including the development of complex rulemakings, many in conjunction with other federal
financial regulatory agencies. Given the extent of the requirements that Dodd-Frank places on
the Board, we conducted an audit of the Board’s progress in implementing Dodd-Frank,
including the processes used to manage its implementation.

      Our audit objectives were to assess (1) the efficiency and effectiveness of the Board’s
processes for identifying, tracking, and overall managing its responsibilities under the act; and
(2) the Board’s progress in implementing key requirements of the act. We found that the Board
has implemented processes and taken significant steps to meet its Dodd-Frank responsibilities.
Notwithstanding the Board’s progress, effectively implementing the extensive Dodd-Frank
requirements presents ongoing business challenges that will require continued management
attention and monitoring. We identified several areas for the Board’s continued management
attention and monitoring in meeting its responsibilities under Dodd-Frank. We also identified
opportunities to improve the use of a project reporting and tracking tool; we have one
recommendation in this area, designed to enhance project monitoring and reporting.
Messrs. Alvarez and Lyon                     2                           September 30, 2011

     We provided our draft report to you for review and comment. In your consolidated
response, included as Appendix C, you discussed the improvement actions that are planned or
underway to address the report’s recommendation.

      We appreciate the cooperation that we received from Board staff during our review. The
report will be added to our public web site and will be summarized in our next semiannual report
to Congress. Please contact me if you would like to discuss the report or any related issues.

                                           Sincerely,



                                      Andrew Patchan, Jr.
                                  Associate Inspector General
                                  for Audits and Attestations

cc:   Ms. Sandra F. Braunstein
      Mr. William English
      Mr. Patrick M. Parkinson
      Ms. Louise L. Roseman
      Mr. Dick Anderson
      Mr. David Stockton
Board of Governors of the Federal Reserve System




 Audit of the Board’s Implementation
    of the Dodd-Frank Wall Street
 Reform and Consumer Protection Act




         Office of Inspector General


                                           September 2011
                                                        Table of Contents

                                                                                                                                         Page


Executive Summary ........................................................................................................................ 7

Background ..................................................................................................................................... 8

Objectives, Scope, and Methodology ........................................................................................... 10

Findings, Conclusions, and Recommendations ............................................................................ 11

     Managing the Overall Workload Volume and Complexity .................................................... 12

     Collaborating and Coordinating Actions with Other Financial
       Regulatory Agencies .......................................................................................................... 14

     Obtaining and Analyzing Voluminous Public Comments ...................................................... 14

     Meeting Statutory Deadlines................................................................................................... 15

     Establishing an Organizational Structure and Recruiting and Integrating
        New Staff ........................................................................................................................... 17

     Improving the Use of the Regulatory Reform Project Tracking Tool .................................... 19

Recommendation .......................................................................................................................... 24

Analysis of Comments .................................................................................................................. 24

Appendixes ................................................................................................................................... 25

     Appendix A – Projects Included within Audit Scope ............................................................. 27

     Appendix B – Approved Position Increases Budgeted for 2011 ............................................ 29

     Appendix C – Management’s Response ................................................................................. 31




                                                                        5
Executive Summary
In response to the financial crisis of 2008, the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank) was enacted on July 21, 2010. Dodd-Frank’s stated purpose is to
“promote the financial stability of the United States by improving accountability and
transparency in the financial system, to end ‘too big to fail,’ to protect the American taxpayer by
ending bailouts, to protect consumers from abusive financial services practices, and for other
purposes.” Dodd-Frank includes a multitude of provisions that affect virtually every financial
market and establishes new authorities and responsibilities for nearly every federal financial
regulatory agency. Dodd-Frank charges the Board of Governors of the Federal Reserve System
(Board) with significant responsibilities, including the development of complex rulemakings,
many in conjunction with other federal financial regulatory agencies.

Given the extent of the requirements that Dodd-Frank places on the Board, the Board’s Office of
Inspector General conducted an audit of the Board’s progress in implementing Dodd-Frank,
including the processes used to manage its implementation. Our objectives were to assess (1) the
efficiency and effectiveness of the Board’s processes for identifying, tracking, and overall
managing its responsibilities under the act; and (2) the Board’s progress in implementing key
requirements of the act.

Overall, we found that the Board has implemented processes and taken significant steps to meet
its Dodd-Frank responsibilities. The Board has drawn on expertise and resources from across the
Federal Reserve System and has over 300 staff members working on its implementation projects.
The Board has established an organizational structure with a senior staff position to coordinate
its efforts and developed and implemented the use of project reporting and tracking tools to
facilitate management and oversight. Through these efforts, the Board is making progress in
implementing key requirements of the act. The Board has completed studies and rulemakings,
issued reports, and reorganized and created offices to meet its Dodd-Frank obligations, and
Board project teams are continuing work on Dodd-Frank requirements, many of which require
interagency involvement.

Notwithstanding the Board’s progress, effectively implementing the extensive Dodd-Frank
requirements presents ongoing business challenges that will require continued management
attention and monitoring. Dodd-Frank requirements for complex rulemakings, studies, and other
initiatives need to be implemented in a timely, deliberative, and coordinated manner and need to
meet statutory deadlines. The statutory deadlines mandated by Dodd-Frank for the Board extend
into 2013, and over 40 percent of these deadlines fall within the approaching October 2011
through January 2012 timeframe. We identified several areas for the Board’s continued
management attention and monitoring in meeting its responsibilities under Dodd-Frank, as well
as opportunities to improve the use of a project reporting and tracking tool. We have one
recommendation in this area, which is designed to enhance project monitoring and reporting.
Leveraging lessons learned from challenges experienced during the Board’s early
implementation activities can help guide the Board in efficiently and effectively carrying out
Dodd-Frank requirements, the bulk of which lie ahead.



                                                 7
Background
The Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank), Pub. L. No.
111-203, was enacted on July 21, 2010. The act states that its purpose is to “promote the
financial stability of the United States by improving accountability and transparency in the
financial system, to end ‘too big to fail,’ to protect the American taxpayer by ending bailouts, to
protect consumers from abusive financial services practices, and for other purposes.” In
addition, Dodd-Frank creates the Financial Stability Oversight Council (FSOC) and the Bureau
of Consumer Financial Protection (Bureau).

To accomplish its many purposes, Dodd-Frank levies significant requirements on the Board of
Governors of the Federal Reserve System (Board) and other financial regulatory agencies. These
requirements include the development of more stringent prudential standards and the use of a
macroprudential approach by financial regulatory agencies when supervising financial
institutions and critical infrastructures, taking into account not only the safety and soundness of
each individual firm, but also risks to overall financial stability. Dodd-Frank also expands the
supervisory responsibilities of the Board to include thrift holding companies as well as certain
systemically important (1) nonbank financial firms; (2) financial market utilities; and (3)
payment, clearing, and settlement activities.

To complete this substantial workload in addition to its existing responsibilities, the Board (1)
identified relevant provisions of Dodd-Frank, (2) organized them into 257 projects to facilitate
the implementation process, and (3) identified itself as having lead responsibility for 171 of
these. These projects, approximately half of which require collaboration and coordination with
other financial regulatory agencies, were then assigned to various Board staff on an
interdisciplinary basis. The Board’s analysis of Dodd-Frank included identification of critical
provisions, such as whether deadlines were mandatory, discretionary, or conditional, and
whether activities required the involvement of other agencies. For projects having statutory
deadlines, due dates vary and extend into 2013.

The demand for staff to complete the workload imposed by Dodd-Frank is considerable, as is the
need for a management framework to manage this workload. To meet this demand, the Board
drew upon expertise and resources from across the Board, as well as from various Federal
Reserve Banks. Over 300 staff members from across the Federal Reserve System are working
on Dodd-Frank projects. These staff members represent a variety of professional disciplines,
including attorneys, economists, financial analysts, and others. In addition, 146 new positions
were included in the Board’s 2011 budget, of which the vast majority are specifically identified
as necessary to implement Dodd-Frank requirements and lessons learned from the financial
crisis. 1

To manage the Dodd-Frank implementation process, the Board has implemented an
organizational structure led by the Special Advisor to the Board for Regulatory Reform
Implementation (Dodd-Frank Special Advisor) to coordinate efforts. A key component of this

    1
     The 146 new positions cover 10 divisions and offices. These position totals do not include the Office of
Inspector General (OIG).

                                                         8
organizational structure is the Regulatory Reform Coordinating Committee (RRCC). The RRCC
comprises select Dodd-Frank division project coordinators, is chaired by the Dodd-Frank Special
Advisor, and meets weekly to monitor and manage Dodd-Frank project progress. The RRCC
recently enhanced its processes to track and report projects at risk of missing deadlines.

In addition, the Board has developed and implemented the use of a number of project reporting
and tracking tools to facilitate management and oversight of its implementation responsibilities.
These include a tool to manage public comments on rulemakings and the Board’s Regulatory
Reform Project Tracking Tool (RRPTT). RRPTT was developed during the Board’s early Dodd-
Frank implementation efforts to facilitate the monitoring of, and reporting on, Dodd-Frank
project status. Figure 1 below provides a breakdown of Dodd-Frank projects by RRPTT
category.


       Figure 1 – Dodd-Frank Projects by RRPTT Category




Category Descriptions

        Rulemaking: A project the Board leads or conducts jointly with another agency that involves a formal
         rulemaking, regulation, or regulatory guideline.
        Process Development/Change: A project that the Board leads, conducts jointly, or is consulting on
         that involves developing or changing a process.
        Study/Report: A project the Board leads or conducts jointly with another agency that involves
         preparing a study or report (one-time or ongoing).
        Bureau Transition: A project that involves the Board supporting the establishment of the Bureau or
         transferring personnel and/or responsibilities (including transfer of rulewriting authority) to the
         Bureau.
        Consultation: Rulemaking: A project for which one or more other agencies have responsibility (and
         which is not a joint project with the Board), where the other agency(ies) is (are) required to consult
         with the Board on a formal rulemaking, regulation, or regulatory guideline.
        Consultation: Studies/Reports: A project where one or more other agencies have responsibility (and
         which is not a joint project with the Board), where the other agency(ies) is (are) required to consult
         with the Board in preparing a study or report (one-time or ongoing).



                                                     9
In order to transparently communicate information regarding Dodd-Frank activities, the Board
has undertaken a number of communication initiatives. These initiatives include a public web
page dedicated to the Board’s regulatory reform activities, as well as updates provided by the
Dodd-Frank Special Advisor via email and the Board’s intranet.

Objectives, Scope, and Methodology
Our audit objectives were to assess (1) the efficiency and effectiveness of the Board’s processes
for identifying, tracking, and overall managing its responsibilities under the act; and (2) the
Board’s progress in implementing key requirements of the act.

We reviewed the processes and organizational structure the Board put in place to identify, track,
and manage its Dodd-Frank implementation responsibilities. We also assessed the project
management, reporting, and tracking tools the Board uses to facilitate management and oversight
of these responsibilities. Our review did not, however, include a review of the individual
controls for each of these tools.

Additionally, we assessed the implementation of specific Dodd-Frank provisions where the
Board identified itself as a lead agency. 2 The provisions selected for assessment had statutory
deadlines prior to June 30, 2011; were rulemakings with statutory deadlines in July 2011; or
were projects that were shown in RRPTT as completed as of April 21, 2011, regardless of
deadline. Appendix A contains a summary table of the provisions within our audit scope. Given
our audit objectives, we did not review the quality or appropriateness of completed projects, nor
did we review the legal sufficiency of rulemaking comment periods or the resolution of these
comments.

Using the Board’s RRPTT and regulatory reform web page, we identified Dodd-Frank projects
within our scope and analyzed the Board’s tracking and management of these projects. We
verified the accuracy of projects and deadlines in RRPTT using a number of techniques. We
compared the statutory requirements, including deadlines, in RRPTT to those in the Mandatory
Rulemaking Appendix of Congressional Research Service (CRS) Report R41472, Rulemaking
Requirements and Authorities in the Dodd-Frank Wall Street Reform and Consumer Protection
Act. 3 We also judgmentally selected provisions from the CRS report and compared them to the
provisions of Dodd-Frank to gain assurance as to the accuracy of the CRS report. Further, we
confirmed all deadline dates for projects within our scope with the requirements of Dodd-Frank.

We reviewed relevant documentation, interviewed cognizant Board staff, and analyzed data
contained in RRPTT. We identified divisions, offices, committees, and staff responsible for
Dodd-Frank project completion, strategic planning, and oversight responsibilities. In addition,
we reviewed the process the Board used to identify and develop projects and to assign projects to
divisions.
    2
       The Board determined that it was a “lead” agency where its analysis of Dodd-Frank identified the Board as
being responsible for a particular provision.
     3
       CRS Report R41472, by Curtis W. Copeland, identifies provisions in the act that either require or permit
rulemaking by a federal agency, including the Board. The CRS report includes a list of mandatory rulemakings in
its Appendix A and a list of discretionary rulemakings in its Appendix B.

                                                       10
We reviewed Dodd-Frank and relevant legislative history. We also reviewed reports,
testimonies, press releases, and other available information from the Board, the Federal Reserve
Banks, other financial regulatory agencies, and the Government Accountability Office.

We obtained copies of final rulemakings, projects, reports, and studies from the “Final Library”
in RRPTT as well as from links provided on the Board’s regulatory reform web page. For
rulemakings, we also obtained copies of the Federal Register for analysis. Using the Board’s
Office of the Secretary Electronic Comments Routing System (SECRS), we identified the
number of public comments received by the Board in response to certain proposed rules. 4 We
judgmentally selected and reviewed individual comments on SECRS to gain an understanding of
the process and the workload.

To assess staffing requirements and resources, we reviewed budget submission data and various
division documents. We also assessed the Board’s efforts to date in filling these positions.

Our period of fieldwork was February 2011 through June 2011, and we conducted our review in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the review to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
objectives. This report has one recommendation.

Findings, Conclusions, and Recommendations
Overall, the Board has implemented processes and taken significant steps to manage its
responsibilities under Dodd-Frank. From the provisions of Dodd-Frank, the Board identified
over 250 projects that require its involvement and determined that it has lead responsibility for
two-thirds of these. The Board has over 300 staff members from across the Board’s divisions, as
well as from various Federal Reserve Banks, working to complete these projects and has
implemented an organizational structure led by the Dodd-Frank Special Advisor. The Board has
also developed and implemented RRPTT, as well as other processes, to assist in Dodd-Frank
project management. These steps have provided the support, framework, and systems for the
Board to address process changes, studies, reports, and rulemakings to date. Although
considerable progress in implementing key Dodd-Frank provisions has been made, effectively
implementing the extensive Dodd-Frank requirements presents ongoing business challenges that
will require continued management attention and monitoring. Dodd-Frank requirements for
complex rulemakings, studies, and other initiatives need to be implemented in a timely,
deliberative, and coordinated manner and need to meet statutory deadlines. The statutory
deadlines mandated by Dodd-Frank for the Board run into 2013, with over 40 percent falling
within the approaching October 2011 through January 2012 timeframe.




    4
      SECRS is an application used by the Board to electronically process incoming comments from the public on
rulemaking, regulatory, information-collection, and other proposals, and to post those comments to the Board’s
public website.

                                                      11
We noted that the Board faces a number of challenges in implementing its substantial Dodd-
Frank requirements efficiently and effectively, including (1) managing the overall workload
volume and complexity; (2) collaborating and coordinating actions with other financial
regulatory agencies that share responsibilities for a number of rules, studies, and other Dodd-
Frank provisions; (3) obtaining and analyzing voluminous public comments on rulemakings; (4)
meeting statutory deadlines; and (5) establishing an organizational structure and recruiting and
integrating new staff. In addition to these challenges, we identified opportunities to improve the
use of the Board’s project reporting and tracking tool, and we have one recommendation in this
area.

We noted that some of these challenges have had adverse impacts on project completion early in
the Board’s implementation process. Of the 13 projects having statutory deadlines that fell
within the period of our fieldwork, 6 missed their deadlines. Two of these six projects stem from
a single proposed rulemaking that generated over 11,000 comments. The other four projects
were delayed due to interagency operational challenges, including one project that the Board
approved about one week prior to its deadline. While these projects represent a small percentage
of the Board’s overall Dodd-Frank implementation responsibilities through 2013, they are
reflective of the challenges that the Board faces in its ongoing implementation efforts. As the
bulk of the Board’s Dodd-Frank work lies ahead, leveraging lessons learned from challenges
experienced during its early implementation activities can help guide the Board in efficiently and
effectively carrying out Dodd-Frank requirements going forward.

Managing the Overall Workload Volume and Complexity

To meet its new responsibilities under Dodd-Frank, the Board is challenged with completing and
managing a substantial workload. The sheer volume of this workload is made more difficult by
its complexity and because it is in addition to the Board’s existing responsibilities. Furthermore,
the Board needs to ensure that certain Dodd-Frank rulemakings integrate and reconcile with each
other, as well as with current financial regulatory community guidance. Dodd-Frank projects
also require detailed, substantive review within and/or across Board divisions, as well as across
agencies for interagency actions.

The Board analyzed Dodd-Frank, identified provisions that required its involvement, and
organized them into 257 projects to facilitate the implementation process. Furthermore, the
Board identified that it had lead responsibility for 171 of these projects, including studies and
reports, process changes, complex rulemakings, and other initiatives. Other projects may arise
because some of the Board’s workload is contingent on future unspecified activities. For
example, future FSOC actions could require additional rulemakings or other actions by the
Board. The Board classified 92 of its projects as rulemakings, including some that the Board
must conduct jointly with other agencies. The actual number of rules that will result from these
projects is not clear because many Dodd-Frank rulemaking provisions are discretionary, some
Dodd-Frank provisions may be handled outside of the formal rulemaking process through
regulatory guidance, and a single rulemaking may cover multiple Dodd-Frank provisions.
Continued management attention will need to include monitoring, analysis, and resolution of
existing Dodd-Frank initiatives, as well as those that may arise from future activities.



                                                12
Workload complexity also includes the challenge of ensuring the consistency and integration of
the implementation of new Dodd-Frank requirements with each other, as well as with current
regulations and guidance employed by the Board and the financial regulatory community. Some
Dodd-Frank actions trigger dependent requirements. For instance, the Board’s amendments to
repeal Regulation Q (Prohibition Against Payment of Interest on Demand Deposits) required,
among other things, removal of references to Regulation Q found in Regulation D (Reserve
Requirements of Depository Institutions) and Supplement I to Regulation DD (Truth in Savings).

Furthermore, the impact of Dodd-Frank actions may be unintentionally dampened or amplified
when combined with other actions taken to satisfy Dodd-Frank requirements. For example, in its
Credit Risk Retention Report, which was generated pursuant to section 941(c) of Dodd-Frank,
the Board recommended that rulemaking agencies consider credit risk retention requirements in
the context of all the rulemakings required under Dodd-Frank, stating that “requirements that
would, if imposed in isolation, have modest effects on the provision of credit . . . could, in
combination with other regulatory initiatives, significantly impede the availability of financing.”

In addition, other specific Dodd-Frank requirements may necessitate reconciliation of certain
existing processes and guidance. For example, section 939A of Dodd-Frank requires the
removal of any regulatory reference to, or requirements of reliance on, credit ratings. This
requirement is inconsistent with the Basel II standardized approach for credit risk that relies
extensively on credit ratings to assign risk weights to various exposures. The standardized
approach is a part of an international accord developed by the Basel Committee on Banking
Supervision to establish a global standard for how banks and other financial institutions measure
and recognize risk. 5 The Board has published an advance notice of proposed rulemaking jointly
with the Office of the Comptroller of the Currency (OCC), the Federal Deposit Insurance
Corporation (FDIC), and the Office of Thrift Supervision (OTS) seeking comments on potential
alternatives to the use of credit ratings. 6

Dodd-Frank rulemakings, studies, and reports also challenge the Board to provide detailed,
substantive review at the team, division, and agency level, as well as multi-agency review for
interagency projects. After consensus has been reached among the team members as to the
completion status of a project, there are additional layers of approval needed before a project can
be finalized. Each team member from a different division is responsible for gaining approval for
Dodd-Frank work products from his or her division management. Subsequent reviews are also
required from the relevant Board committee, 7 and approvals are required from the Board of
Governors. In the case of interagency actions, approvals from all agencies may also be needed
before the project can be finalized. The multiple approval levels and the need for consensus

    5
       See the “International Convergence of Capital Measurement and Capital Standards, a Revised Framework,
Comprehensive Version,” the Basel Committee on Banking Supervision, June 2006. The full text is
available on the Bank for International Settlement’s website, http://www.bis.org/publ/bcbs128.htm.
     6
       Advance Notice of Proposed Rulemaking Regarding Alternatives to the Use of Credit Ratings in the Risk-
Based Capital Guidelines of the Federal Banking Agencies, 75 Fed. Reg. 52283 (Aug. 25, 2010).
     7
       The Board has established standing committees to carry out its work: the Committee on Board Affairs; the
Committee on Consumer and Community Affairs; the Committee on Economic and Financial Monitoring and
Research; the Committee on Federal Reserve Bank Affairs; the Committee on Payments, Clearing, and Settlement;
and the Committee on Bank Supervision. Also, ad hoc committees of two or three members are established from
time to time for special projects or problems.

                                                      13
building will require continued management attention and monitoring to ensure Dodd-Frank
projects remain on track.

Collaborating and Coordinating Actions with Other Financial Regulatory Agencies

Reaching consensus on Dodd-Frank actions when collaborating and coordinating with other
financial regulatory agencies presents challenges for the Board. Certain Dodd-Frank actions
require developing interagency team structures and processes, building consensus on actions
when managing agencies’ competing priorities, and gaining needed approvals from multiple
agencies. In addition, there is the associated challenge of managing lead times needed to
accomplish these activities. Interagency coordination is also needed to facilitate an orderly
transition when managing the transfer of personnel and authorities between agencies as directed
by Dodd-Frank.

The Board’s Dodd-Frank implementation activities require interagency collaboration on
approximately half of the projects for which the Board determined that it was a lead agency.
This collaboration may take the form of joint rulemaking, interagency consultation, or a
combination of both. We were informed that while the Board has identified itself as a lead
agency on various projects requiring interagency collaboration, there is no formal structure or
process for the resolution of competing interagency priorities. While consensus building among
the agencies may reap the benefits of various perspectives, this process can be very time
consuming. For example, one of the Board’s interagency projects missed its statutory deadline
by about a week because of the logistics of interagency approvals, even though the Board of
Governors approved the final product about a week prior to the deadline. We were also
informed that in some cases interagency differences of opinion have required issues to be
elevated to the agencies’ offices of counsel for negotiation and ultimately to the heads of the
agencies for resolution.

The Board also faces interagency coordination challenges when managing the transition of
various authorities as directed by Dodd-Frank. For example, Dodd-Frank transfers authority for
consolidated supervision of savings and loan holding companies and their non-depository
subsidiaries from the OTS to the Board effective July 21, 2011. Joint Implementation Plan 301-
326 developed by the FDIC, the OCC, the OTS, and the Board pursuant to section 327(a) of
Dodd-Frank addresses a number of potential challenges in this process, such as the need to
determine policy and technical differences. In addition, the plan identifies a contingent workload
challenge regarding potential changes to transferred OTS regulations. Similarly, interagency
challenges also need to be considered in the transfer of certain Board consumer compliance and
rulemaking functions to the Bureau.

Obtaining and Analyzing Voluminous Public Comments

Managing formal public comments on rulemakings will continue to challenge the Board,
particularly given the volume of comments being received and the need to provide meaningful
consideration of each of these comments. To provide context for this challenge, we noted that
the Truth in Lending interim final rule published in October 2010 generated over 1,200
comments. More recently, the debit card interchange fees and routing proposed rule generated

                                               14
over 11,000 public comments, prompting the lead division for this rulemaking to create a web-
based application to assist in comment management. Use of this application has since expanded
to include another rulemaking project, and we were informed that the application remains
available for use by any Dodd-Frank project team. In addition to the sheer number of comments,
the individual comments can be substantial, with the longest we have noted to date being 167
pages.

Another management challenge involves providing the opportunity for public comment while
meeting deadlines for Dodd-Frank actions. We noted that the periods for public comment on
proposed rules published to date have varied. The majority have been at least 60 days, although
we did identify proposed rules with shorter comment periods, with the shortest being 30 days. 8
Such shorter time periods for public comment may be appropriate assuming they do not
adversely impact the collection and consideration of comments; considerations include, among
other things, the complexity of the issues involved and the stakeholders affected by the proposed
rule.

Meeting Statutory Deadlines

The challenges discussed above are compounded by the existence of many statutory deadlines
within the first 18 months of Dodd-Frank implementation. Some of the deadlines have already
been missed. Of the Dodd-Frank projects for which the Board has identified statutory deadlines,
over 40 percent fall within the approaching October 2011 through January 2012 timeframe. In
addition, many of these deadlines require the completion of multiple Dodd-Frank projects
concurrently, creating peaks in the workload and congestion in approval schedules. One of the
responsibilities of the Dodd-Frank Special Advisor is to minimize this congestion by
coordinating the dates on which projects will be brought to the Board of Governors for review
and approval. Figure 2 on the next page illustrates how statutory deadlines will challenge the
Board’s efforts into 2013.




    8
      We were informed that the Board considers the comment period for Dodd-Frank proposed rulemakings to
begin when the proposed rules are published on the Board’s public website because of the uncertainty of when they
will be published in the Federal Register.

                                                       15
Figure 2 – The Board’s Dodd-Frank Implementation by Statutory Deadline Date


                          30
                                                                            26

                          25


                          20

                 Number                                        14
                    of    15
                 Projects
                                                                                     9
                          10
                                                                      6
                                                          5
                                                                                                   4
                          5
                                 2           3
                                         2           1                                      1

                          0
                               Oct.  Dec.  Jan.  Mar.  Apr.  Jul.  Oct.  Jan.  Jul.  Sept.  Jan. 
                               2010 2010 2011 2011 2011 2011 2011 2012 2012 2012 2013
                                                         Deadline Month




We noted that the previously discussed challenges have already adversely impacted projects. Of
the 13 projects that had statutory deadlines that fell within the period of our fieldwork, 6 missed
their statutory deadlines as shown in Table 1 below.9

Table 1 – Projects that missed their deadlines
         Project        Project Title(s)     RRPTT Project      Statutory    Completion         Reason the Deadline was
        Number(s)                              Category         Deadline       Date                     Missed
                                                                                                 Interagency discussions
                         Volcker Rule:
                                                                                                   to promote consistent
           173           Conformance             Rulemaking     1/21/2011        2/9/2011
                                                                                                       application and
                            Period
                                                                                                  implementation of rule
                                                                                                Interagency negotiations
                           Incentive
           179                                   Rulemaking     4/21/2011    Ongoing*           regarding applicability of
                         Compensation
                                                                                                        requirements
                                                                                                Interagency negotiations
                          Credit Risk
           214                                   Rulemaking     4/17/2011    Ongoing*              regarding inclusion of
                           Retention
                                                                                                      certain standards
                        Office of Thrift
                         Supervision
                                                                                                Logistics of interagency
           232          Transition Plan       Study/Report      1/17/2011    1/25/2011
                                                                                                        approval
                        Congressional
                            Report
                           Debit Card                                                            These two projects stem
                           Interchange                                                          from a single rulemaking
         284 and
                        Transaction Fees         Rulemaking     4/21/2011    6/29/2011          that required meaningful
           285
                         and Debit Card                                                           consideration of over
                          Network Fees                                                          11,000 public comments
        * Projects marked “Ongoing” had not been completed as of June 30, 2011.

    9
      We were informed that the Board considers Dodd-Frank rulemakings complete when published on the Board’s
public website because of the uncertainty of when they will be published in the Federal Register.

                                                              16
Although these projects represent a small percentage of the Board’s overall Dodd-Frank
implementation responsibilities through 2013, they are reflective of the challenges that the Board
faces in its ongoing implementation efforts.

Establishing an Organizational Structure and Recruiting and Integrating New Staff

The Board faces a number of organizational and staffing challenges to address its Dodd-Frank
workload. The Board has established an organizational structure for managing its Dodd-Frank
efforts that includes project teams with team members and leaders, project coordinators at the
division level, and the RRCC headed by the Dodd-Frank Special Advisor. While the Board has
recruited and hired some new staff to carry out its Dodd-Frank efforts, it still relies substantially
on existing staff across the Federal Reserve System to perform Dodd-Frank work in addition to
their existing duties. In a number of cases, team leaders are leading multiple projects. The
Board faces planning and management challenges to effectively hire and assimilate a large
number of new staff to carry out its Dodd-Frank responsibilities. These include the need to
substantially increase staff in certain offices; integrate and manage employees brought in to meet
the needs of these offices; obtain specialized expertise; and replace team members who have
recently separated from the Board. Dodd-Frank requirements with substantial lead times may
permit the hiring and development of new staff, but tighter deadlines may necessitate
identification and analysis of other possible staffing approaches. Staffing challenges will
continue past the completion of specific Dodd-Frank projects because many mandates flowing
from Dodd-Frank studies, process changes, and rulemakings will add additional functions to
Board operations.

Organizational Structure and Staffing

To meet its Dodd-Frank implementation responsibilities, the Board initially implemented an
organizational structure with 81 team leaders and 334 team members from across the Board’s
divisions, as well as from various Federal Reserve Banks. These staff members were selected to
work on certain Dodd-Frank projects based on their expertise. Most Dodd-Frank project teams
are multidisciplinary, and each has a designated team leader who is responsible for managing
project efforts and communicating project status both through RRPTT and to their respective
division project coordinators.

The majority of team leaders were assigned to lead multiple projects in RRPTT, averaging 3
projects per team leader, with 1 team leader initially assigned to lead 19 projects. In addition,
nearly all of the team leaders also serve as members on other projects. 10 One division explained
to us that they assigned a few key staff members to multiple teams for the purpose of identifying
the specific expertise needed from their division and that they were in the process of “swapping
out” the individuals in these positions. While we recognize that projects have different due dates
and not all projects are currently “active” and require ongoing attention, this still represents a


    10
       The Banking Supervision and Regulation (BS&R), Consumer and Community Affairs (DCCA), International
Finance (IF), Legal, Monetary Affairs (MA), OIG, Reserve Bank Operations and Payment Systems (RBOPS), and
Research and Statistics (R&S) divisions had staff working on implementing specific Dodd-Frank projects within our
audit scope. The Legal Division typically has a representative on any project that involves rulemaking.

                                                       17
large workload on certain individuals. We believe this Dodd-Frank workload could affect
performance of existing job responsibilities and employee morale.

Project coordinators serve as their respective division’s central point of contact for a composite
group of projects assigned to the division. In addition, project coordinators facilitate timely and
effective communication flows between team leaders and the Dodd-Frank Special Advisor. We
were informed that 10 project coordinators actually serve on the RRCC and facilitate information
flows to this committee. This committee meets weekly to monitor and manage Dodd-Frank
project progress. The RRCC is chaired by the Dodd-Frank Special Advisor. The Dodd-Frank
Special Advisor has a full-time advisor to assist in program coordination. In addition to
monitoring and managing Dodd-Frank implementation progress, the Dodd-Frank Special
Advisor provides implementation updates to the Board and is responsible for scheduling the
dates on which items will be brought to the Board for review and approval.

We identified that some divisions having fewer Dodd-Frank projects rely on existing governance
mechanisms for management and approval of Dodd-Frank implementation. BS&R, on the other
hand, employs a Dodd-Frank Senior Review Group (DF SRG) to assist in the management of its
Dodd-Frank projects because of the large number of projects it manages. We were informed that
team leaders follow the traditional chain of command (as represented in BS&R governance
documents) for approval of Dodd-Frank projects; however, wide ranging issues or those
requiring input from other division staff are brought before the DF SRG.

Recruiting and Assimilating New Staff

The workload of Dodd-Frank requires the Board to hire additional staff, creating challenges
related to the recruitment, hiring, and assimilation of new staff with the required skills and
expertise. The Board’s 2011 budget includes 146 new positions for 10 divisions and offices, the
vast majority of which were requested to implement Dodd-Frank requirements, as well as lessons
learned from the financial crisis. Appendix B provides a breakdown of the number of new
positions by division and office.

Information on staffing in the 2011 budget request noted that divisions and offices originally
requested approximately 200 positions to support proposed initiatives. After discussions with
the Staff Planning Group, the Board’s Administrative Governor, and respective oversight
Governors, the divisions reevaluated assumptions regarding their ability to effectively hire and
assimilate a large number of new staff during the first full year of Dodd-Frank implementation.
As a result of this additional review, division and office directors reduced their request to the 146
positions discussed above. They noted, however, that to fully implement new legislative
mandates and to meet other workload requirements would likely necessitate hiring an additional
66 positions. At the time of the budget request, these positions were deferred until 2012.

The status of this hiring for divisions with lead responsibility for Dodd-Frank projects within our
scope is shown in Table 2 on the next page.




                                                 18
Table 2 - Division Hiring Status
                             BS&R      Legal       MA       RBOPS        R&S        Total
                2011
             Authorized       45         8            9        13         28        103
               Position
              Increase
             Individuals
            Hired to Date     22         4            7        6          28         67

            Remaining
           Positions to be    23         4            2        7          0          36
               Filled

We were informed by officials in some divisions that hiring was further complicated by the
specialized expertise needed to implement Dodd-Frank and that the Board is competing with the
private sector for these needed skill sets. In addition, attrition of existing staff will necessitate
further hiring. For example, during our review, two key staff members left the Board; they had
served as team members, team leaders, project coordinators, and members of the RRCC. We
also noted that eight positions posted by one division were to replace employees who had left
that division.

We were informed during our meetings with Board personnel that multiple discussions were held
to identify individuals with the skills and knowledge to complete Dodd-Frank projects. We did
not observe, however, the use of formal tools, such as skill inventories, to support these efforts.
Going forward, recruiting and staffing challenges will continue to require management attention,
particularly in those divisions with large or ongoing hiring needs.

Improving the Use of the Regulatory Reform Project Tracking Tool

We identified opportunities to improve the use of RRPTT for project monitoring and status
communication, and we have one recommendation in this area. The Board developed and
implemented RRPTT to facilitate Dodd-Frank project management and serve as a reporting
mechanism through which Board and Reserve Bank staff and management may track the
progress of projects. RRPTT enables key information, such as pending due dates, to be viewed
for all 257 projects, including high priority initiatives. RRPTT also serves as a medium for
project team leaders to communicate with team members and management about how projects
are progressing and what actions are required of the Dodd-Frank Special Advisor and the RRCC
in order to keep projects on track. The Dodd-Frank Special Advisor stated that he also regularly
discusses the status of projects in his weekly meetings with the RRCC, and that he relies on the
project coordinators to update him on the status of projects during these meetings. These
discussions include projects having deadlines within the next three months, and those thought to
be at risk. The flow chart in Figure 3 on the next page illustrates the RRPTT information flow
from the team leaders, up through the Dodd-Frank Special Advisor, to the Governors.




                                                 19
       Figure 3 – Regulatory Reform Project Tracking Tool Project Information Flow


                                                 Governors



                                      Dodd-Frank Special Advisor
                              ----------------------------------------------------
                            Regulatory Reform Coordinating Committee



                                           Division Leadership
                                 ---------------------------------------------
                                          Project Coordinators



                                            Individual Project
                                        ------------------------------
                                                Team Lead



                                            Individual Project
                                          ---------------------------
                                             Team Members


RRPTT was newly developed and implemented during the performance of the projects we
reviewed in this audit, and our review of the information in RRPTT found inaccuracies in 9 of
the 26 projects within our scope. These included (1) statutory due dates that were initially
incorrect and (2) inaccurate team leader milestone or project status assessments and reporting.
We also noted that the weekly team leader assessments for four ongoing projects past their
statutory deadlines were performed inconsistently by team leaders from different divisions.

During our fieldwork, in late March 2011, the RRCC enhanced the processes it uses in
conjunction with RRPTT to track and report Dodd-Frank projects at risk of missing statutory
deadlines. In March, the RRCC discussions were enhanced to include classifying projects
thought to be at risk into one of two stages: Stage I is for projects that have a significant
possibility of missing their statutory deadlines, and Stage II is for projects that are clearly going

                                                      20
to miss their deadlines. These RRCC discussions also include the current status of at-risk
projects and the reasons they are at risk. We were informed that this process was put in place to
distill the information from RRPTT and better monitor projects at risk of not meeting deadlines.
Information from RRPTT and the RRCC meetings is used by the Dodd-Frank Special Advisor to
update the Governors and for periodic email and regulatory reform web page updates.

Incorrect Statutory Due Dates

Of the 26 projects within our scope, 21 were listed in RRPTT with statutory due dates, and we
found that RRPTT had incorrect due dates for 5 of these projects.

   •   Three projects with due dates listed in RRPTT did not actually have statutory deadlines.
       By the end of our fieldwork, one of these projects had been completed, and two were still
       ongoing. The Board has corrected the deadline information in RRPTT for the ongoing
       projects by removing the listed due dates.
   •   The statutory deadline listed in RRPTT for another project was a year earlier than its
       actual deadline. At the end of our fieldwork, this project was still ongoing, and the Board
       had corrected its deadline in RRPTT.
   •   The statutory deadline for the fifth project was dependent on the completion of an earlier
       project. When this earlier project was completed late, the dependent deadline was not
       adjusted. This project was completed by its actual deadline.

While none of these incorrect due dates caused projects to miss actual deadlines, accurate data
helps ensure effective management of, and status reporting for, overall Dodd-Frank
implementation. Although the Board has corrected these deadlines, the inaccuracies point out
challenges in managing large numbers of projects, including when some are contingent or
dependent on other projects or activities.

Team Leader Assessments and Reporting

Of the 26 projects that we reviewed in RRPTT, we found 4 with inconsistent team leader project
assessments. RRPTT was designed to be used as a collaborative tool to manage and monitor the
progress of Dodd-Frank projects. Board and Federal Reserve Bank staff may view key summary
performance information as pie charts on the RRPTT Performance Dashboard. More detailed
information is available by scrolling through the individual projects or from the team leader’s
comments and milestone status via hyperlinks. This information includes a color-coded project
status for each project from both a RRPTT system assessment and team leader assessment.
Colors, descriptions, and indicators to be used for both team leader and RRPTT system
assessments are included in the RRPTT User Guide as shown in Table 3 on the next page. The
“Late Indicator” symbol displays when the weekly team leader project assessment is not timely
submitted.




                                               21
       Table 3 – RRPTT Team Leader and System Assessment Colors and Descriptions




The RRPTT system assessment is automatically generated based on whether interim milestones
leading to the due date have been met. Team leader assessments, however, are based on the team
leader’s judgment as to whether the project is at risk of missing the due date. The RRPTT
Performance Dashboard displays cumulative status data for all projects in the team lead
assessment pie chart, and this status is based solely on the weekly team leaders’ assessment
colors. An image of the cumulative team leader assessments on the Performance Dashboard is
shown as Figure 4 below.

Figure 4 – Example of RRPTT Performance Dashboard Cumulative Team Leader
Assessments for Board Projects




Projects on the pie chart are not identified as being at risk of not meeting their deadlines unless
the team leader has assigned them a red assessment. Team leaders are responsible for
monitoring project status; clearly and accurately assessing how the project is progressing;
updating RRPTT with current project status information; and communicating project status
through RRPTT. The RRPTT User Guide states that team leader assessments are used to
communicate to the program and project coordinators how each project is progressing and
whether any action is required by the Dodd-Frank Special Advisor. Project coordinators are
                                                 22
required to monitor the progress of projects through the weekly team leader assessments to
ensure that any emerging risks or concerns can be addressed. Project coordinators are also
responsible for timely and effective communication flow between team leaders and the Dodd-
Frank Special Advisor to ensure that the Dodd-Frank Special Advisor is updated regarding the
progress of projects.

We identified team leaders who appropriately used RRPTT when projects were at risk of not
meeting their deadlines. For example, the team leader for two projects within our scope used
RRPTT in a manner that fully and accurately communicated project status when deadlines were
going to be missed. In both of these cases, the projects were given a red assessment by the team
leader seven weeks before the statutory deadline, and this color assessment was concurrent with
the team leader’s first comments in RRPTT indicating that the project deadlines would not be
met. In 4 of the 26 projects we reviewed, however, we found team leader color assessments that
were inconsistent with their comments in RRPTT:

   •   In one case we found comments that noted as early as January 5, 2011, that the project
       would not meet its April 17, 2011, deadline. Nonetheless, three different individuals
       gave the project weekly green assessments, indicating that the project was on track,
       through the deadline date. At the end of our fieldwork this project was still ongoing.
   •   A second project was put into yellow status, indicating the project had missed milestones
       but was still expected to meet its deadline, over three months prior to its deadline, and the
       team leader noted in the narrative that he anticipated a tight timeline for meeting the final
       rule deadline. This project missed its deadline but never received a team leader red
       assessment. This project has been completed.
   •   The third of these projects was a rulemaking that was not published as a proposed
       rulemaking until after the date needed to provide for the planned public comment period,
       not including the time needed to consider and address these comments. Therefore, the
       project could not be completed before the statutory deadline, yet it was not assessed as
       red. At the end of our fieldwork this project was still ongoing.
   •   The team leader of the fourth project noted in the weekly project assessment, six days
       prior to the deadline, that she had been informed that the head of another agency would
       not be able to review the report until the next week, so the deadline would be missed.
       Nonetheless, the team leader did not revise the color assessment. This project has been
       completed.

In addition, we did not find formal RRPTT guidance for team leaders on reporting project status
once their projects pass their statutory deadlines. We noted that team leaders of two such
projects provided project assessments based solely on progress against their revised milestones;
therefore, the team leader color assessments did not indicate that the projects had missed their
due dates. Conversely, the team leader of the projects discussed earlier that were assessed as red
prior to their deadlines, continued to assess these projects as red after missing the deadlines to
show the projects had missed their due dates. Our discussions with all three team leaders
indicated that they believed they were correctly reporting.

We also found one instance where a team leader had inadvertently marked all milestones as
“completed” at the beginning of a project. This error resulted in the RRPTT system assessments

                                                23
remaining green regardless of actual project progress. When we pointed out the milestone status
error during our meeting with this team leader, the team leader immediately corrected the
project’s milestone status, and the system assessment is now yellow. This project is being
managed in concert with several others that have more aggressive deadlines, and it appears to be
on schedule to meet its statutory deadline. During the period of our audit, the Board
reprogrammed the logic surrounding RRPTT system assessments so projects would remain “red”
if a statutory deadline was missed, regardless of project milestone adjustments. There is no
summary of RRPTT system assessments, however, on the RRPTT Performance Dashboard.

The project milestone and assessment issues we noted resulted primarily from Board staff’s
initial lack of familiarity with the system. In addition, there is no formal RRPTT guidance for
assessments of projects that have missed their statutory deadlines. The Board is currently
reviewing deadlines in RRPTT to validate deadlines and make any final adjustments. We have
requested a copy of the Board’s final analysis for assessment when completed.

Recommendation
Recommendation 1: To improve the benefit that the Board derives from the project
management and reporting capabilities of RRPTT, we recommend that the Dodd-Frank Special
Advisor to the Board for Regulatory Reform Implementation (a) develop and issue appropriate
guidance on RRPTT usage relating to team leader color assessments and the management of
projects that have not been completed by their statutory deadlines, and (b) instruct team leaders
and project coordinators to evaluate and revise their RRPTT project information as necessary.

Analysis of Comments
We provided a copy of this report to the Board’s General Counsel and the Special Advisor to the
Board for Regulatory Reform Implementation for their review and comment. In their
consolidated response, included as Appendix C, they summarized the management structure and
processes employed to meet the ongoing challenges of Dodd-Frank implementation. In addition,
they indicated that the report’s recommendation will be addressed by reviewing existing policies
related to RRPTT and clarifying guidance on color-coded status assessments. We were
subsequently notified that the RRCC approved additions to the RRPTT User Guide and User
Procedures on Monday, September 12, 2011, and that team leaders were instructed to revise
RRPTT project information given this revised guidance.




                                                24
Appendixes
                                                                                                Appendix A

                                      Projects Included within Audit Scope

  Project                                     RRPTT               Lead        Statutory
                  Project Title                                                                Project Status
  Number                                  Project Category       Division     Deadline

             Capital Requirements:
    118      Off Balance Sheet          Rulemaking                BS&R       01/21/2012      Completed
             Activities
             Risk Committee                                                                  Ongoing at the end
    124                                 Rulemaking                BS&R       07/21/2012 11
             Requirements                                                                    of fieldwork
             Emergency Lending and
    154      Other Facilities           Study/Report                MA        12/1/2010      Completed
             Disclosure (One-Time)
             Office of Minority and
             Women Inclusion            Process Development/
    157                                                            Legal     01/21/2011      Completed
             (OMWI): Establish          Change
             Offices
             Volcker Rule:
    173                                 Rulemaking                 Legal     01/21/2011      Completed
             Conformance Period
                                                                                             Ongoing at the end
    179      Incentive Compensation     Rulemaking                 Legal     04/21/2011
                                                                                             of fieldwork
             Interest on Demand
    183      Deposits (Repeal of        Rulemaking                  MA       07/21/2011      Completed 12
             Regulation Q)
             Moratorium on
             Industrial Loan
             Companies and              Process Development/
    191                                                            Legal         NA          Completed
             Limited-Purpose Credit     Change
             Card Banks and Trust
             Companies
             De Novo Interstate         Process Development/
    194                                                            Legal        NA 13        Completed
             Branching                  Change
             Credit Rating                                                                   Ongoing at the end
    213                                 Rulemaking                BS&R          NA 14
             Alternatives                                                                    of fieldwork
                                                                                             Ongoing at the end
    214      Credit Risk Retention      Rulemaking                 Legal     04/17/2011
                                                                                             of fieldwork
             Credit Risk Retention
    215                                 Study/Report               R&S       10/19/2010      Completed
             Impact Study
             Systemic Resolution:
             Testimony of Primary       Process Development/
    227                                                           BS&R           NA          Completed
             Financial Regulatory       Change
             Agency



    11
        We reviewed this project because the original statutory deadline in RRPTT was incorrectly listed as
07/21/2011. This date was corrected in RRPTT during our audit fieldwork.
     12
        This project was completed on July 14, 2011.
     13
        We reviewed this project because RRPTT reported it was complete, which was accurate; however, the
statutory deadline in RRPTT was incorrectly listed as 12/31/2010. This project had no statutory deadline.
     14
        We reviewed this project because the original statutory deadline in RRPTT was incorrectly listed as
07/21/2011. This project had no statutory deadline. This was corrected in RRPTT during our audit fieldwork.

                                                       27
                                                                                                Appendix A

                                       Projects Included within Audit Scope

  Project                                      RRPTT               Lead       Statutory
                  Project Title                                                                Project Status
  Number                                   Project Category       Division    Deadline

             Office of Thrift
             Supervision (OTS)
    232                                  Study/Report              BS&R       1/17/2011      Completed
             Transition Plan
             Congressional Report
             IG Review: OTS              Consultation:
    238                                                             OIG       3/15/2011 15   Completed
             Transition Plan             Studies/Reports
             Capital Requirements
    241      for Swap Dealers and        Rulemaking                BS&R           NA         Completed
             Others
             Debit Card Interchange
    284                                  Rulemaking               RBOPS       4/21/2011      Completed
             Transaction Fees
             Debit Card Network
    285                                  Rulemaking               RBOPS       4/21/2011      Completed
             Fees
             Debit Transaction
    286      Exclusivity and Routing     Rulemaking               RBOPS       7/21/2011      Completed
             Restrictions
             Debit Card Interchange
    287      Transaction Fees Public     Study/Report             RBOPS       4/21/2011      Completed
             Report
             Community
             Reinvestment Act            Process
    303                                                            DCCA           NA         Completed
             (CRA) Rule Writing          Development/Change
             Authority
             Real Estate Appraisals:
    335                                  Rulemaking                DCCA       10/19/2010     Completed
             Independence
             Residential Mortgages:
    340      S.A.F.E. Act Mortgage       Rulemaking                BS&R       1/21/2013      Completed
             Originator Registration
             Residential Mortgages:
    346                                  Rulemaking                DCCA       1/21/2013      Completed
             Escrow Requirements
             Swaps Margin                                                                    Ongoing at the end
    360                                  Rulemaking                 R&S          NA 16
             Requirements                                                                    of fieldwork
             Truth in Lending Act
    365      (TILA): Exemption           Rulemaking                DCCA           NA         Completed
             Threshold Increase




    15
        This deadline in RRPTT is incorrect; it should be 03/26/2011, 60 days after the submission of the OTS
transition plan. The OIG completed its review of the OTS transition plan on time but was not responsible for
revising this project’s deadline in RRPTT.
     16
        We reviewed this project because the original statutory deadline in RRPTT was incorrectly listed as
07/16/2011. This project has no statutory deadline. This information was corrected in RRPTT during our audit
fieldwork.


                                                        28
                                                                                   Appendix B
Approved Position Increases Budgeted for 2011
              Number of
 Division                                                      Purpose
               Positions
  Office of
    Board                  Communication strategist position to modernize its information
                    1
  Members                  dissemination strategy to include social media
  Office of
     Staff                 Support the establishment of an Office of Minority and Women inclusion at
                    1
   Director                the Board as required under Dodd-Frank
                           Economists and support staff to address lessons learned in the financial
                           crisis, participate and comment on research policy studies, and focus on
                   14
     R&S                   systemic risk
                           Economists and support staff to play a role in shaping regulations resulting
                           from Dodd-Frank, lead efforts in the work of the Financial Stability
                   14
     R&S                   Oversight Council, and revamp data collection
      IF            4      Economists to address increased demand resulting from the financial crisis
      IF            5      Economists and support staff to address requirements of Dodd-Frank
                           Economists and support staff to meet requirements of Dodd-Frank and
                    7
     MA                    alleviate the pressure of workloads from the financial crisis
                           Senior records project manager to meet increasing demands for Freedom of
                    1
     MA                    Information Act requests
                           Economist to prepare regular materials regarding the evolution of private
                    1
     MA                    sector forecasts
                           Enhance the effectiveness of institutional supervision and surveillance of
                   11
    BS&R                   Large Institution Supervision Coordinating Committee portfolio
                           Acquire thrift supervision knowledge to address supervisory authority for
                    6
    BS&R                   all thrift holding companies
                           Develop policies that are required under Dodd-Frank relating to risk
                           retention, appraisals, and capital, along with supporting financial research
                    4
    BS&R                   relating to market risk, treasury functions, and credit securitization
                           Address the shortage of quantitative experts for the oversight of the Basel 2
                           (B2) implementation process, the depth and quality of B2-related exams,
                    4
    BS&R                   and the interpretation of B2 approval standards
    BS&R           20      Address lessons learned and delayed activities due to the financial crisis
   LEGAL            8      Develop rules and participate in studies related to Dodd-Frank
                           New responsibilities related to oversight of systemically important payment,
                   13
   RBOPS                   clearing, and settlement systems
 Information
 Technology        16      Support the divisions’ and offices’ IT-related initiatives
 Management
   (MGT)           10      Infrastructure needed to support growth Boardwide
                           Support space leasing requirements and the design effort for the visitor and
                    3
    MGT                    conference center
                           Support increased workload in the Procurement section and meet
                    3
    MGT                    requirements of Dodd-Frank
 TOTAL            146
                                                29
     Appendix C




31
     Appendix C




32
